HHS/OIG, Audit -"Review of Title II of the Ryan White Comprehensive AIDS Resources Emergency Act at the California
Department of Health Services,"(A-09-03-01016)
Department
of Health and Human Services
Office of Inspector General -- AUDIT
"Review of Title II of the Ryan White Comprehensive AIDS Resources Emergency Act at the California Department of
Health Services," (A-09-03-01016)
October 5, 2004
Complete
Text of Report is available in PDF format (1.31 mb). Copies can also be obtained by contacting the Office of Public
Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
The objective of this audit was to determine whether the California Department of Health Services (State agency) (i) met
key service-delivery performance goals and complied with program requirements, (ii) followed applicable cost requirements
in the expenditure of CARE Act Title II funds and (iii) purchased prescription drugs at the lowest prices available for
ADAP.  We found that the State agency (i) met its key service-delivery performance goals and complied with program
requirements, (ii) complied with cost requirements in the expenditure of CARE Act Title II funds and (iii) purchased prescription
drugs at discounted prices.  Although the State agency purchased prescription drugs at discounted prices, it did not
fully use all the rebates received from manufacturers to expand CARE Act Title II program services and activities in a
timely manner.  However, the State agency took corrective action and used $66.8 million of rebate funds for ADAP in
State fiscal year 2005 and established monitoring procedures to ensure that future rebate funds are identified and used
for the program in a timely manner.